UNITED STATES SUPREME COURT
ROGERS V. MICHIGAN,
CASE NO. NEW PETITION

APPENDIX “A”
Rogers v. Palmer,
DISTRICT COURT OPINION
2019 U.S. Dist. LEXIS 50284, March 26,2019 (Last Decision on the Merits)

APPENDIX A.

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1531

Page 1 of 16

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ROWMOTO ANTWION ROGERS,
Case No. 16-10424
Honorable Laurie J. Michelson

Petitioner,
v.
CARMEN PALMER,
Respondent.

OPINION AND ORDER DENYING
PETITION FOR A WRIT OF HABEAS CORPUS
Rowmoto Antwion Rogers filed a petition for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254 challenging his convictions for first-degree premeditated murder, assault with intent to
commit murder, and two firearm-related felonies. Having reviewed the habeas petition, the
Warden’s response, Rogers’s reply, and the state-court record, the Court will deny the habeas
petition.
L
The Court will rely on the following facts from the trial court record, as described by the
Michigan Court of Appeals. See 28 U.S.C. § 2254(e)(1); Wagner v. Smith, 581 F.3d 410, 413 (6th
Cir. 2009).
Rogers’ convictions arise from a January 2008 shooting in the city of Detroit. People v.
Rogers, No. 291180, 2010 WL 3062119, at *1 (Mich. Ct. App. Aug. 5, 2010). Shots were fired
into a Jeep Commander occupied by five individuals, including Rayvon Perry and Martha Barnett,
who died from her wounds. Id. None of the occupants of the vehicle were able to identify any of
the shooters. Id.

Case 2:16-cv-l0424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1532

Page 2 of 16

The principal evidence against Rogers and his co-defendant Tony Hurd was Perry’s
testimony. Id. Perry testified that he knew both defendants and saw them shortly after the shooting.
Id. According to Perry, Rogers admitted to him that he and another person, DeAndre Woolfolk,
shot at the vehicle from a car driven by his co-defendant. Id. Rogers explained that they “messed
up” by shooting at the wrong vehicle. Id. Perry did not initially disclose this information to the
police, but eventually revealed it in response to the prosecutor’s investigative subpoena. Id.
Rogers’s conviction was affirmed on appeal. Id., Iv. den. 793 N.W.2d 236 (Mich. 2011).
Rogers filed a pro se post-conviction motion for relief from judgment, which was later
supplemented with a brief filed by an attorney. The motion was denied. People v. Rogers, No. 08009271-FC (Wayne Cty. Cir. Ct. May 1,2012); People v. Rogers, No. 08-009271-FC (Wayne Cty.
Cir. Ct. May 29, 2014). The Michigan Court of Appeals and Michigan Supreme Court denied
Rogers leave to appeal. People v. Rogers, No. 324777 (Mich. Ct. App. Jan. 6, 2015); Iv. den. 873
N.W.2d 560 (Mich. 2016).
Rogers seeks habeas relief on four different grounds: the prosecutor was improperly
allowed to vouch for the credibility of his star witness during closing arguments, prejudicial photos
were admitted during the trial, there was insufficient evidence to convict him, and the state court
improperly denied him a new trial based on newly discovered evidence without holding a hearing.

n.
The Antiterrorism and Effective Death Penalty Act (AEDPA) (and 28 U.S.C. § 2254 in
particular) “confirm[s] that state courts are the principal forum for asserting constitutional
challenges to state convictions.” Harrington v. Richter, 562 U.S. 86, 103 (2011); see also Cullen
v. Pinholster, 563 U.S. 170, 182 (2011). Thus, if a claim was “adjudicated on the merits in State
court proceedings,” this Court cannot grant habeas corpus relief on the basis of that claim “unless
.1

2

Case 2:16-cv-l0424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1533

Page 3 of 16

the adjudication of the claim . . . resulted in a decision” (1) “that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States” or (2) “that was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding.” See 28 U.S.C. § 2254(d). But if the state
courts did not adjudicate a claim “on the merits,” this “‘AEDPA deference’ does not apply and
[this Court] will review the claim de novo” Bies v. Sheldon, 775 F.3d 386, 395 (6th Cir. 2014).

m.
A.
Rogers claims that he was denied a fair trial because of prosecutorial misconduct.
Specifically, he argues that the prosecutor improperly vouched for the credibility of his main
witness and made an improper “civic duty” argument to the jurors.
Although the Warden urges the Court to find Rogers procedurally defaulted this claim, the
Court elects to skip to the merits because wading into procedural default unnecessarily complicates
this claim. See Thomas v. Meko, 915 F.3d 1071, 1074 (6th Cir. 2019). The Michigan Court of
Appeals did not unreasonably reject Rogers’ claim of prosecutorial misconduct.
Rogers points to several of the prosecutor’s comments in closing argument as improper.
The prosecution stated,
Hero[e]s come in all shapes and sizes. There are the hero[e]s that we’re familiar
with from movies and TV such as John Wayne. There are war hero[e]s. There are
hero[e]s every day in terms of when you hear stories of people who pull people out
of the path of cars or parents who are hero[e]s in helping their children or saving
their children in fires.
There’s a hero that we’ve heard of most recently in that - the captain of that US
AIR - the pilot of that airplane, who with years of training on how to fly airplanes
still reacted with calm courage and set that airplane on the Hudson river - and there
are reluctant hero[e]s. People who did not choose to be a hero. People who fought
the pull to be a hero, who didn’t want to be a hero, who didn’t want to be in the
spotlight.
3

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1534

Page 4 of 16

Rayvon Perry is the reluctant hero in this case. He’s the reluctant hero because he
came forward and told the truth about what he knew. It is on his shoulders that the
case rests .... Why is Rayvon Perry a hero? Well, he is going against the grain.
We live in a society where — from the time that we are young, we are taught that
it is bad to be a tattle tail [n'c], We all know from our own experiences that it’s not
easy to tell on other people. It makes us uncomfortable particularly when it is with
people we know. We also know —: and you heard from the witnesses as well, that
we live in a culture that has made it mad — it’s become the word “snitch.” Snitch
is something negative. If you’re a snitch, you’re a bad person. ‘Don’t tell the police.
Don’t tell the government. Keep it to youself [«c].’ Rayvon Perry went against that
grain not easily, not willingly, reluctantly — but he did so nonetheless.
Rayvon Perry told the truth against people that he knew . . . and he did it against
tremendous pressure ... He had every reason in the world not to tell the police and
not to tell you that Rowmoto Rogers and Tony Hurd admitted being the shooter and
the driver in this particular case, but he told the truth.
(ECF No. 1, PageID.21-22; ECF No. 5-8, PagelD. 1092-1094.)
The Michigan Court of Appeals conducted a plain-error review of this claim. They found
that the comments did not amount to an improper vouching as to credibility or an appeal to the
juror’s civic duty. Rogers, 2010 WL 3062119, at *3. Instead, the comments were “properly
presented reasons, grounded in the evidence for why the jury should find [Perry’s] testimony
credible.” Id. And the prosecutor’s characterization of Perry as a reluctant hero “was not an appeal
to any sense of the jurors’ civic duty, but rather was a comment on [Perry’s] circumstances as
reflecting reasons for finding his testimony credible.” Id.
AEDPA deference applies when a state court, on plain-error review, “conducts any
reasoned elaboration of an issue under federal law.” Stewart v. Trierweiler, 867 F.3d 633, 638 (6th
Cir. 2017), cert, denied, 138 S. Ct. 1998 (2018). Here, although the Court of Appeals only cited to
state law, the cases it relied on discuss prosecutorial misconduct in the context of whether it denied
the defendant a fair trial. See People v. Dobek, 732 N.W.2d 546 (Mich. Ct. App. 2007); People v.
McGhee, 709 N.W.2d 595 (Mich. Ct. App. 2005); People v. Unger, 749 N.W.2d 272 (Mich Ct.

4

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1535

Page 5 of 16

App. 2008). So the Court will presume that the Michigan Court of Appeals adjudicated the claim
pursuant to federal law; i.e., it effectively undertook a due process analysis in determining whether
the misconduct rendered the trial unfair. See Johnson v. Williams, 568 U.S. 289, 298-299 (2013).
The Court will apply AEDPA deference to this claim.
The Court will first address the civic-duty claim. Prosecutors cannot make statements
“calculated to incite the passions and prejudices of the jurors.” United States v. Solivan, 937 F.2d
1146, 1151 (6th Cir.1991). The Michigan Court of Appeals found that the prosecutor’s
characterization of Perry as a “reluctant hero” for coming forward and cooperating “was not an
appeal to any sense of the jurors’ civic duty, but rather was a comment on [Perry]’s circumstances
as reflecting reasons for finding his testimony credible.” Rogers, 2010 WL 3062119, at *3. The
Court cannot say this was an unreasonable application of established Supreme Court law
Roger’s improper-vouching claim is closer. But the Court is constrained by the
considerable deference that must be given to the state court’s decision. “When a petitioner makes
a claim of prosecutorial misconduct, ‘the touchstone of due process analysis ... is the fairness of
the trial, not the culpability of the prosecutor.’” Serra v. Michigan Dep’t of Corr., 4 F.3d 1348,
1355 (6th Cir. 1993) (citing Smith v. Phillips, 455 U.S. 209,219 (1982)). “The key question on the
merits ‘is whether the prosecutor’s comments so infected the trial with unfairness as to make the
resulting conviction a denial of due process.’” Stewart, 867 F.3d at 638 (quoting Darden v.
Wainwright, 477 U.S. 168,181 (1986)). “Because that standard is ‘a very general one,’ courts have
considerable leeway in resolving such claims on a case-by-case basis.” Id. (quoting Parker v.
Matthews, 567 U.S. 37, 48 (2012) (internal quotation omitted)). “That leeway increases in
assessing a state court’s ruling under AEDPA” such that a federal court “‘cannot set aside a state
court’s conclusion on-a federal prosecutorial-misconduct claim unless a petitioner cites . . . other

5

Case 2:16-cv-l0424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1536

Page 6 of 16

Supreme Court precedent that shows the state court’s determination in a particular factual context
was unreasonable.'"Id. at 638-39 (quoting Trimble v. Bobby, 804 F.3d 767, 783 (6th Cir. 2015)).
“In evaluating alleged prosecutorial misconduct, [the court] first determine[s] whether the
challenged statements made by the prosecutor were improper.” United States v. Bradley, 917 F.3d
493 (6th Cir. 2019) (citation omitted). “If they appear improper, we then look to see if they were
flagrant and warrant reversal.” United States v. Francis, 170 F.3d 546, 549 (6th Cir. 1999) (citing
United States v. Carroll, 26 F.3d 1380, 1388 (6th Cir. 1994)). “Improper vouching occurs when a
prosecutor supports the credibility of a witness by indicating a personal belief in the witness’s
credibility thereby placing the prestige of the office of the United States Attorney behind that
witness” or makes comments that “imply that the prosecutor has special knowledge of facts not in
front of the jury or of the credibility and truthfulness of witnesses and their testimony.” Id. at 550
(citations omitted). To determine whether a prosecutor’s remarks constituted flagrant misconduct,
[the court] assesses] (1) whether the conduct and remarks of the prosecutor tended to mislead the
jury or prejudice the defendant; (2) whether the conduct or remarks were isolated or extensive; (3)
whether the remarks were deliberately or accidentally made; and (4) whether the evidence against
the defendant was strong.” Id. (internal quotations and citations omitted).
Were the Court reviewing this issue de novo, it would be hard pressed to find that this was
not improper vouching. And even applying AEDPA deference, the Michigan Court of Appeals’
conclusion that these statements were not improper and therefore did not render Rogers’ trial
fundamentally unfair is at the outer bounds of reasonable. The prosecutor invited the jury to view
Perry as a hero—and an honest one at that. And the prosecutor baldly stated that Perry was telling
the truth. The theme of Perry’s heroics pervaded the closing argument. And these statements are
made all the more problematic because the evidence against Rogers was strongly dependent on

6

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1537

Page 7 of 16

Perry’s testimony. But the prosecutor’s statements were contextualized by stating that Perry “had
every reason in the world” to not go to the police because he and Rogers were from the same
neighborhood and had a close relationship. (ECF No. 5-8, PagelD. 1094-1095.) So, given the
leeway the federal court must give to state courts’ application of the prosecutorial-misconduct
standard, see Stewart, 867 F.3d at 638-39, the Court cannot find that the state court unreasonably
concluded that the prosecutor was not implying special knowledge of the facts, but highlighting
the reasons why the jury should find Perry’s testimony credible. Further, Rogers’ attorney, in
closing, focused on sowing doubt and highlighting evidence that pointed the blame at another
person. (ECF No. 5-8, PagelD. 1116-1122.) And the trial judge instructed the jury that “[t]he
lawyer’s statement and arguments are not evidence” and that it is the jury’s job “and nobody else’s”
to decide the facts of the case, including “whether [the jury] believe[s] what each of the witnesses
said.” (ECF No. 5-8, PagelD. 1143, 1145.) So while the Court does not condone the prosecutor’s
conduct in this case, the Court cannot find that the state court unreasonably applied Supreme Court
precedent in dismissing this claim.1
B.
Rogers next contends that his right to a fair trial was violated by the admission of three
autopsy photographs, which he claims were “gruesome” and unduly prejudicial.
The Michigan Court of Appeals rejected Rogers’ claim. People v. Rogers, 2010 WL
3062119, at *2. It found that the photos were relevant to prove cause of death and that the bullets

1 Rogers’ petition also appears to argue, in passing, that the prosecutor’s comments violated
his rights under the Confrontation Clause. {See ECF No. 1, PageED.24.) It is unclear whether this
claim was raised with the state courts. And even assuming some variant was raised, the state court
properly addressed it as a claim for prosecutorial misconduct as the prosecutor’s statements during
closing argument could‘not be deemed testimony and Rogers was able to cross-examine Perry. See
Crawford v. Washington, 541 U.S. 36, 51 (2004).
7

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1538

Page 8 of 16

passed through an intermediary target before hitting the victim. Id. And it found that the
“photographs were not so gruesome as to outweigh their probative value” because they were close
up shots “not immediately recognizable as photographs of a human body” and were “clinical and
bloodless.” Id.
Rogers argues that he stipulated to the cause of death and that the bullets were shot from
outside of the car, so the photos had no probative value. (ECF No. 1, PagelD. 32-37.) Instead they
unfairly prejudiced him and “inflamed the jurors’ passions and emotions.” (Id.)
It is “not the province of a federal habeas court to reexamine state-court determinations on
state-court questions.” Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). A federal court is limited
in federal habeas review to deciding whether a state court conviction violates the Constitution,
laws, or treaties of the United States. Id. Thus, errors in the application of state law, especially
rulings regarding the admissibility of evidence, are usually not questioned by a federal habeas
court. Seymour v. Walker, 224 F.3d 542, 552 (6th Cir. 2000).
To the extent Rogers asserts that his right to due process was violated, he must identify an
evidentiary ruling that is “so egregious that it results in a denial of fundamental fairness” to obtain
habeas relief. Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). Courts have defined the category
of infractions that violate fundamental fairness very narrowly. Id. at 512 (citing Wright v. Dallman,
999 F.2d 174, 178 (6th Cir. 1993)). “Whether the admission of prejudicial evidence constitutes a
denial of fundamental fairness turns upon whether the evidence is material in the sense of a crucial,
critical highly significant factor.” Brown v. O ’Dea, 227 F.3d 642, 645 (6th Cir. 2000) (internal
quotations omitted). Here, as recognized by the Michigan Court of Appeals, the photographs were
bloodless and close-ups shots—not immediately recognizable as photographs of a human body.
Further, the photos did not identify or implicate Rogers in the murder and there was other evidence
I i * ‘ •

8

-•

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1539

Page 9 of 16

that described the way the victim was shot and killed. Cf. Ege v. Yukins, 485 F.3d 364, 375-378
(6th Cir. 2001) (finding due-process violation from admission of bitemark testimony identifying
petitioner that was highly prejudicial given that no other evidence placed the petitioner at the scene
of the murder). So while the photos may not have been terribly probative given the stipulations
and other evidence at trial, their admission was not material of a “crucial highly significant factor”
and does not rise to the level of egregiousness necessary to find a due-process violation.
Rogers is not entitled to relief on this claim.
C.
Rogers next contends that there was insufficient evidence to convict him.
Rogers raised a like claim with the Michigan Court of Appeals. (ECF No. 5-16.) In its
opinion, however, that court adjudicated the claim as though Rogers was alleging that the
conviction was against the great weight of the evidence. Rogers, 2010 WL 3062119, at *3-4. And
“whether the evidence was sufficient to sustain a conviction and whether the verdict was against
the great weight of the evidence are two separate questions.” People v. Brown, 610 N.W.2d 234,
240 n. 6 (2000). So the Court will not, as the Warden suggests, presume that the Michigan Court
of Appeals adjudicated Rogers’ insufficient-evidence claim. (ECF No. 4, PageDD.142 (citing
Johnson v. Williams, 133 S.Ct. 1088, 1096 (2013).) Instead, the Court will review this claim de
novo.
“Evidence is sufficient to support a conviction so long as ‘after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.’” Cavazos v. Smith, 565 U.S. 1, 7 (2011)
(quoting Jackson v. Virginia, 443 U.S. 307, 319 (1979) (emphasis in original)).

9

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1540

Page 10 of 16

Rogers’ primary argument is that there was insufficient evidence to establish his identity
as the shooter. Under Michigan law, “the identity of a defendant as the perpetrator of the crimes
charged is an element of the offense and must be proved beyond a reasonable doubt.” Byrd v.
Tessmer, 82 F. App’x 147, 150 (6th Cir. 2003) (citing People v. Turrell, 181 N.W.2d 655, 656
(Mich. Ct. App. 1970)).
He argues both that “there was ample reason not to believe” Perry’s testimony (ECF No.
1, PagelD.39^40) and that “even if believed” his testimony would be insufficient to establish
identity because Perry testified that Rogers said that “it was a mistake” but he did not say that “it”
was the shooting on January 28, 2008, nor did he say that he was involved in that “mistake.”
To the extent that Rogers challenges the credibility of the prosecution witnesses, he would
not be entitled to relief. Attacks on witness credibility are simply challenges to the quality of the
prosecution’s evidence, and not to the sufficiency of the evidence. Martin v. Mitchell, 280 F.3d
594, 618 (6th Cir. 2002). An assessment of the credibility of witnesses is generally beyond the
scope of federal habeas review of sufficiency of evidence claims. Gall v. Parker, 231 F.3d 265,
286 (6th Cir. 2000).
The primary evidence against Rogers was Perry’s testimony that Rogers confessed to being
the shooter. Perry was in the car when it was shot into and was shot in the hand. (ECF No. 5-5,
PagelD.650-665.) Perry testified that shortly after the shooting, he went to a house in his
neighborhood and saw Rogers and his co-defendant, Tony Hurd. (ECF No. 5-5, PagelD.667.)
Rogers asked Perry about his hand and said, “I’m glad you’re all right.” (ECF No. 5-5,
PagelD.668.) Then he said something to the effect of “It was crazy how it happened.” (Id.) Then
Perry testified that Rogers “started to tell [him]” “who was responsible” and said that “it was a
mistake” and “something had went wrong—what happened, it was the wrong car.” (ECF No. 5-5,

10

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1541

Page 11 of 16

PageID.669.) Perry testified that Rogers told him that he, Hurd and “Dollar” were in the car. (Id.)
And that “after [Perry] stopped at the light they pulled up on the side of [them] —but not all the
way, then shot the top of the car and the bottom of the car” “to kill everybody that was inside.”
(ECF No. 5-5, PagelD.670-671.) Dollar also had a gun, but it jammed before he had a chance to
shoot. (ECF No. 5-5, PageID.671.) Then an alarm went off that “scared [Hurd] and he [drove]
off” (ECF No. 5-5, PagelD.673.) Rogers asked whether Perry knew the girls in the car. (Id.) And
when Perry said no, Rogers said “good—, like—I thought it was you all’s girls.” (ECF No. 5-5,
PagelD.674.)
There was also testimony from Jarmel Reives. But this testimony was mixed in implicating
Rogers. He at first testified that he overheard Rogers say, “If they shot, I hope they didn’t shoot
my little dog.” (ECF No. 5-7, PageID.986 (emphasis added).) “Little dog” was his name for Perry.
(ECF No. 5-7, PagelD.987.) After being further questioned, Reives appeared to change his
testimony to Rogers saying, “7 almost shot my little dog.” (ECF No. 5-7, PagelD. 1005-^
1007(emphasis added).) Reives further testified that Rogers said that he knew he shot somebody,
but he did not know who. (ECF No. 5-7, PagelD. 1006.) But later, he testified again that he
overheard Rogers say, “I hope they didn’t shoot my little dog.” (ECF No. 5-7, PagelD. 1032
(emphasis added).) Given how often he switched between testifying that Rogers said “I” and
“they,” this testimony contributes little to the sufficiency of the evidence.
But Rogers’ confession to Perry, if believed, is likely sufficient to establish his identity as
the shooter. Despite what Rogers is arguing now, it was not ambiguous that Perry’s testimony
about Rogers’ alleged confession concerned the January 28 shooting. The conversation took place
a day or two after the shooting. Rogers asked about Perry’s hand, and in response, started to tell
him what happened;-how Hurd had pulled the car next to theirs and how he -had shot up the car to

11

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1542

Page 12 of 16

kill everyone inside. Rogers also asked whether Perry knew the girls that were inside the car. So
Perry’s testimony was strong evidence that Rogers was the shooter. And although little
corroborating evidence was presented, the Court cannot find that, if believed, Perry’s testimony
alone would be insufficient evidence to permit any reasonable jury to find, beyond a reasonable
doubt, that Rogers was the shooter.
Rogers further appears to argue that there was insufficient evidence of premeditation and
deliberation to sustain his conviction for first-degree murder.
To constitute first-degree murder in Michigan, the state must establish that a defendant’s
intentional killing of another was deliberate and premeditated. See Scott v. Elo, 302 F.3d 598, 602
(6th Cir. 2002) (citing People v. Schollaert, 486 N.W.2d 312, 318 (Mich. Ct. App. 1992)). The
elements of premeditation and deliberation may be inferred from the circumstances surrounding
the killing. See Johnson v. Hojbauer, 159 F. Supp. 2d 582, 596 (E.D. Mich. 2001) (citing People
v. Anderson, 531 N.W.2d 780 (Mich. Ct. App. 1995)). Although the minimum time required under
Michigan law to premeditate “is incapable of exact determination, the interval between initial
thought and ultimate action should be long enough to afford a reasonable man time to subject the
nature of his response to a ‘second look.’” See Williams v. Jones, 231 F. Supp. 2d 586, 594-95
(E.D. Mich. 2002) (quoting People v. Vail, 227 N.W.2d 535 (Mich. 1975) overruled on other
grounds in People v. Graves, 581 N.W.2d 229 (Mich. 1998)). Premeditation and deliberation may
also be inferred from the type of weapon used and the location of the wounds inflicted. See People
v. Berry, 497 N.W.2d 202 (Mich. Ct. App. 1993). Use of a lethal weapon will support an inference
of an intent to kill. Johnson, 159 F. Supp. 2d at 596 (citing People v. Turner, 233 N.W.2d 617
(Mich. Ct. App. 1975)).

12

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1543

Page 13 of 16
\

In the present case, there was sufficient evidence for a rational trier of fact to conclude that

\
\
\

Rogers acted with premeditation and deliberation when he shot the victim. Rogers claims that there
was insufficient evidence of premeditation because he told Perry that he had shot at the wrong car.
But pursuant to the doctrine of transferred intent, Rogers could be liable for the victim’s death,
even though he intended to kill someone in another car but killed the victim instead. See People v.
Youngblood, 418 N.W.2d 472 (Mich. Ct. App. 1988). Rogers told Perry that he intended to kill
everyone in the vehicle. Rogers’s involvement in what was essentially a drive-by shooting
supported an inference of premeditation and deliberation. See e.g., Puckett v. Costello, 111 F.
App’x 379, 383-84 (6th Cir. 2004). The evidence established that the victim was shot multiple
times. The firing of multiple gunshots at the victim was also sufficient to establish premeditation
and deliberation. See Thomas v. McKee, 571 F. App’x 403, 407 (6th Cir. 2014).
So even on de novo review, Rogers is not entitled to relief on his third claim.
D.
Rogers lastly contends that his due process rights were violated when the state trial court
failed to grant him a new trial without holding a hearing. The basis for the new trial request was
newly discovered evidence consisting of an affidavit from Anita Stafford, a woman who lived in
the Perry brothers’ neighborhood. (ECF No. 5-13, PageID.1224.) Her affidavit attacked the
credibility of Perry. She said that the Perry brothers threatened her physically, verbally, and with
their dogs. (Id.) She also claims she heard Rayvon Perry say on the day of Rogers’ sentencing that
“[w]e fooled them. We got our block back.” (Id.)
The Warden argues that this claim is procedurally defaulted. (ECF No. 4, PageID.144147.) He argues that Rogers did not present this claim on direct appeal, did not comply with Mich.

13

Case 2.-16-CV-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1544

Page 14 of 16

Ct. R. 6.508(D)(3) to show that he was nevertheless entitled to relief, and the state court enforced
that rule. (ECF Nos. 5-15, 5-18.)
In most circumstances, a federal court may not consider the federal claims in a habeas
corpus petition if a state court has denied relief because the petitioner “failed to meet a state
procedural requirement.” Coleman v. Thompson, 501 U.S. 722, 730 (1991). To cement a
procedural default, Rogers must have failed to comply with a procedural rule, the state courts must
have enforced the rule against him, the rule must be an “adequate and independent” ground for
barring habeas corpus review, and Rogers cannot excuse the default. Willis v. Smith, 351 F.3d 741,
744 (6th Cir. 2003); Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986).
All of these factors are met here. First, the state trial court clearly enforced Mich. Ct. R.
6.508(D)(3) to deny this claim. See Ylstv. Nunnemaker, 501 U.S. 797, 805 (1991); (ECF Nos. 19, PageID.82.) Second, “[i]t is well-established in this circuit that the procedural bar set forth in
Rule 6.508(D) constitutes an adequate and independent ground on which the Michigan Supreme
Court may rely in foreclosing review of federal claims.” Munson v. Kapture, 384 F.3d 310, 315
(6th Cir. 2004). Third, Rogers does not present an excuse for the default.
Regardless, even assuming the claim was not defaulted, Rogers is not entitled to habeas
relief. Whether to grant a defendant a new trial involves issues of state law and the Court cannot
grant habeas relief based upon perceived errors of state law. Estelle, 502 U.S. at 67-68. So the
Court will only grant habeas relief if this state-law error takes on a constitutional dimension. Id.
Here, Rogers couches his argument as a “due process” violation. But he does not explain
(or support) a due-process argument arising out of a state court’s denial of a new trial based solely
upon newly discovered impeachment evidence. Instead, he simply states that Michigan courts must
apply its four-factor test in determining whether he is entitled to a new trial “in compliance with

14

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1545

Page 15 of 16

the due process clause.” (ECF No. 1, PageID.44.) And that “due process of law requires a new
trial where adequate newly discovered evidence is found.” (ECF No. 1, PageID.52.) While Rogers
cites to case after case, at bottom, he does not explain how his due process rights were violated by
the denial of his request for a new trial based solely on allegedly new impeachment evidence.
Further, to the extent Rogers claims that the state court erred in not holding a hearing on
his motion for new trial, he is not entitled to habeas relief. Even assuming a right to such a hearing,
“errors in post-conviction proceedings are outside the scope of federal habeas corpus review.”
Cress v. Palmer, 484 F.3d 844, 853 (6th Cir. 2007).
So the Court will not grant Rogers relief on this claim.

rv.
Federal Rule of Appellate Procedure 22 provides that an appeal may not proceed unless a
certificate of appealability (COA) is issued under 28 U.S.C. § 2253. Rule 11 of the Rules
Governing Section 2254 Proceedings now requires that the Court “must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant.” A COA may be issued “only
if the applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). A petitioner must show “that reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further. Slack v. McDaniel, 529
U.S. 473, 484 (2000) (citation omitted). In this case, the Court concludes that reasonable jurists
could debate whether the prosecutor’s improper vouching deprived petitioner of a fair trial.
Therefore, the Court will grant a certificate of appealability on this issue.
For the reasons stated above, the petition for a writ of habeas corpus is DENIED, a
certificate of appealability is GRANTED in part and the matter is DISMISSED.

15

Case 2:16-cv-10424-LJM-DRG ECF No. 9 filed 03/26/19

PagelD.1546

Page 16 of 16

IT IS SO ORDERED.
s/Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES DISTRICT JUDGE

Date: March 26, 2019

CERTIFICATE OF SERVICE
Thereby certify that a copy of the foregoing document was served upon counsel of record
on this date, March 26, 2019, using the Electronic Court Filing system.

s/William Barkholz
Case Manager

16

Case 2:16-cv-l0424-LJM-DRG ECF No. 10 filed 03/26/19

PagelD.1547

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

ROWMOTO ANTWION ROGERS,
Petitioner,
v.

Case No. 16-10424
Honorable Laurie J. Michelson

CARMEN PALMER,
Respondent.

JUDGMENT
In accordance with the Opinion and Order entered on March 26, 2019, IT IS HEREBY
ORDERED that the petition for a writ of habeas corpus is DENIED, a certificate of appealability
is GRANTED in part and the matter is DISMISSED.

Dated at Detroit, Michigan, this 26th Day of March 26, 2019.

DAVID J. WEAVER
CLERK OF THE COURT
APPROVED:
BY: s/William Barkholz
DEPUTY CLERK
s/LAURJE J. MICHELSON
UNITED STATES DISTRICT JUDGE

l

UNITED STATES SUPREME COURT
ROGERS V. MICHIGAN,
CASE NO. NEW PETITION

APPENDIX “B”
Rogers v. Skipper,
SIXTH CIRCUIT COURT OF APPEALS OPINION
2020 U.S. App LEXIS 23441, July 23,2020 (Procedural Bar Discussion)

APPENDIX B.

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0426n.06
Case No. 19-1426
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
^

FILED
ROWMOTO ANTWION ROGERS

)

Jul 23, 2020
DEBORAH S. HUNT, Clerk

)

Petitioner-Appellant,

)
)

v.

)
)

GREGORY SKIPPER, Warden,

)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)

Respondent-Appellee.

)
)

Before: MERRITT, CLAY, and BUSH, Circuit Judges.
MERRITT, Circuit Judge. Rowmoto Rogers, a Michigan inmate, appeals the district
court’s denial of his petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. Rogers was
convicted, among other things, of first-degree murder for the death of teenager Martha Barnett
after shots were fired into the vehicle in which Barnett was a passenger. Shortly after the shooting,
Rogers confessed to his friend Rayvon Perry that he was the person who shot at the vehicle,
thinking it belonged to someone else. Based largely on Perry’s testimony at trial about Rogers’
confession, Rogers was convicted and sentenced to life in prison without possibility of parole. The
sole issue before us in this appeal is whether the closing argument of the prosecutor amounted to .
.

prosecutorial misconduct based on his “vouching” for the credibility of Perry. The district court
held that the statements did not amount to prosecutorial misconduct. We do not reach the merits

Case No. 19-1426, Rogers v. Skipper
of the claim, but instead affirm the district court on the alternate ground that Rogers’ claim of
prosecutorial misconduct is procedurally defaulted because his counsel did not comply with
Michigan’s contemporaneous-objection rule at trial.
Rogers was tried with codefendant Tony Hurd.

The principal evidence against the

defendants was Rayvon Perry’s testimony. Perry, one of the five individuals in the car when it
was fired upon, received a gunshot wound to his hand during the shooting. Perry testified that he
knew both Rogers and Hurd, but he did not know at the time of the shooting that they were
involved. Perry testified that, shortly after the shooting occurred, Rogers confessed to him to being
the shooter. Rogers asked Perry about his hand and said, “I’m glad you’re all right.” Tr. Trans.
Feb. 4,2009, at 147. Perry testified that Rogers then said something to the effect of “[i]t was crazy
how it happened.” Id. Perry testified that Rogers “started to tell me ... who was responsible” and
said that “[i]t was a mistake” and “something had went [sic] wrong—what happened, it was the
wrong car.” Id. at 148. Perry testified that Rogers told him that Rogers, Hurd and DeAndre
Woolfolk1 were in the car that fired the shots. Id. Hurd was the driver. Id. When asked to describe
how the shooting unfolded, Perry testified that “after we stopped at the light they [Rogers, Hurd
and Woolfolk] pulled up on the side of us—but not all the way, then shot the top of the car and the
bottom of the car.” Id. at 149. Perry then testified that Rogers told him they shot at the car that
way “to kill everybody that was inside.” Id. at 150. Rogers told Perry that Woolfolk also had a
gun, but it jammed before he had a chance to shoot. Id. at 151. Rogers said they left when an
alarm went off on Perry’s car that “scared [Hurd] and he [drove] off’ because he thought it was a
police siren. Id. at 152. Rogers asked Perry if he knew the girls in the car. When Perry said no,
Rogers said “good—, like—I thought it was you all’s girls.” Id. at 152-53.

Perry sometimes referred to Rogers as “Toe,” Hurd as “Tone,” and Woolfolk as “Dollar.”
-2-

i

Case No. 19-1426, Rogers v. Skipper
The jury convicted Rogers, the conviction was affirmed on direct appeal, and the Michigan
Supreme Court denied leave to appeal. People v. Rogers, Nos. 291180, 291212, 2010 WL
3062119 (Mich. Ct. App. Aug. 5, 2010) (per curiam), leave to appeal denied, 793 N.W.2d 236
(Mich. 2011). Rogers filed a pro se post-conviction motion for relief from judgment in the state
trial court, which was later supplemented with a brief filed by an attorney. The motion was denied.
People v. Rogers, No. 08-009271-FC (Wayne Cty. Cir. Ct. May 1, 2012); People v. Rogers, No.
08-009271-FC (Wayne Cty. Cir. Ct. May 29, 2014).

The Michigan Court of Appeals and

Michigan Supreme Court denied Rogers leave to appeal. People v. Rogers, No. 324777 (Mich.
Ct. App. Jan. 6,2015), leave to appeal denied, 873 N.W.2d 560 (Mich. 2016). Rogers then sought
habeas relief in federal court, raising four issues: the prosecutor improperly vouched for the
credibility of Rayvon Perry during closing arguments; prejudicial photos were admitted during the
trial; there was insufficient evidence to convict him; and the state court improperly denied him a
new trial based on newly discovered evidence without holding a hearing. The district court denied
the petition, and granted a certificate of appealability only on the prosecutorial misconduct issue.
Rogers v. Palmer, No. 16-10424, 2019 WL 1354185, at *8 (E.D. Mich. Mar. 26, 2019). Rogers
moved to expand the certificate of appealability to add additional issues, but the motion was denied
by this court; Rogers v. Skipper, No. 19-1426 (6th Cir. June 19, 2019).
Now before us is Rogers’ claim that he was denied a fair trial because of prosecutorial
misconduct. Specifically, he argues that the prosecutor improperly vouched for the credibility of
the main witness, Rayvon Perry, and made an improper “civic duty” argument to the jurors.
Rogers points to several of the prosecutor’s comments in closing argument as improper. The
prosecution stated, in relevant part:

• 'ivV.

Hero[e]s come in all shapes and sizes. There are the hero[e]s that we’re familiar
,. with .from movies and TV such as John Wayne. There are war hero[e]s. There are - • ■
-3 -

Case No. 19-1426, Rogers v. Skipper
hero[e]s every day in terms of when you hear stories of people who pull people out
of the path of cars or parents who are hero[e]s in helping their children or saving
their children in fires.
There’s a hero that we’ve heard of most recently in that - the captain of that US
AIR - the pilot of that, airplane, who with years of training on how to fly airplanes
still reacted with calm courage and set that airplane on the Hudson river - and there
are reluctant hero[e]s. People who did not choose to be a hero. People who fought
the pull to be a hero, who didn't want to be a hero, who didn’t want to be in the
spotlight.
Rayvon Perry is the reluctant hero in this case. He’s the reluctant hero because he
came forward and told the truth about what he knew. It is on his shoulders that the
case rests. .. . Why is Rayvon Perry a hero? Well, he is going against the grain.
We live in a society where — from the time that we are young, we are taught that
it is bad to be a tattle tail [sic]. We all know from our own experiences that it’s not
easy to tell on other people. It makes us uncomfortable particularly when it is with
people we know. We also know — and you heard from the witnesses as well, that
we live in a culture that has made it bad — it’s become the word “snitch.” Snitch
is something negative. If you’re a snitch, you’re a bad person. “Don’t tell the police.
Don’t tell the government. Keep it to yourself.” Rayvon Perry went against that
grain not easily, not willingly, reluctantly — but he did so nonetheless.
Rayvon Perry told the truth against people that he knew . . . and he did it against
tremendous pressure .... He had every reason in the world not to tell the police
and not to tell you that Rowmoto Rogers and Tony Hurd admitted being the shooter
and the driver in this particular case, but he told the truth.
Tr. Trans. Feb. 9, 2009, at 14-15. Rogers’ counsel did not object to this argument at trial. Rogers
raised a claim of prosecutorial misconduct on direct appeal, and the Michigan Court of Appeals
conducted a plain-error review, concluding that the comments did not amount to an improper
vouching as to credibility or an appeal to the juror’s civic duty. Rogers, 2010 WL 3062119, at *3.
Rogers raised the claim again in his habeas petition, but the district court denied the claim on the
merits.2 The district court declined to rule on the procedural default issue, deciding instead to go
directly to the merits of the prosecutorial misconduct claim. 2019 WL 1354185, at *2. As it did
2

The district court stated that if it were “reviewing this issue de novo, it would be hard pressed to fmd that this was
■not improper vouching.” 2019 WL 1354185; at-*4.- - ' ■
.

-4-

■

■* . t-

. i% 4, ^

♦

■

** ■

Case No. 19-1426, Rogers v. Skipper
before the district court, the government argues on appeal that the prosecutorial misconduct issue
is procedurally defaulted. Appellee’s Br. at 17-24. Because Rogers failed to comply with the state
procedural rule requiring contemporaneous objection to the prosecutor’s statements, we hold that
the claim is procedurally defaulted and decline to reach the merits of the claim.
The procedural default bar, as applied in the habeas context, “precludes federal courts from
reviewing claims that a state court has declined to address, because of a petitioner’s noncompliance
' with a state procedural requirement.” Howard v. Bouchard, 405 F.3d 459, 475 (6th Cir. 2005).
Procedural default bars a claim from review on the merits if: (i) “there is a state procedural rule
that is applicable to the petitioner’s claim and ... the petitioner failed to comply with the rule,”
(2) the state court “actually enforced the state procedural sanction,” and (3) “the state procedural
forfeiture is an ‘adequate and independent’ state ground on which the state can rely to foreclose
review of a federal constitutional claim.” Scott v. Mitchell, 209 F.3d 854, 863-64 (6th Cir. 2000)
(citing Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986)).
There is no dispute that Rogers failed to comply with the state procedural rule that requires
defendants to specifically and contemporaneously object to alleged prosecutorial misconduct. See
People v. Brown, 811 N.W.2d 531, 535-36 (Mich. Ct. App. 2011). The last state court to issue a
reasoned decision on this claim was the Michigan Court of Appeals, which reviewed the
prosecutorial misconduct claim for plain error because of trial counsel’s failure to object. Rogers,
2010 WL 3062119, at * 3. Plain error review by the state courts does not constitute a waiver of
state procedural default rules for purposes of our review of a habeas petition. Girts v. Yanai, 501
F.3d 743, 755 (6th Cir. 2007); Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir. 2001) (holding that
when a state appellate court reviews an issue for plain error, the federal courts view it as the state’s
enforcement of a procedural default.). Nor does a state court fail to..sufficiently rely upon a

-5-

Case No. 19-1426, Rogers v. Skipper
procedural default by ruling on the merits in the alternative. McBee v. Abramajtys, 929 F.2d 264,
267 (6th Cir. 1991). Lastly, the failure to make a contemporaneous objection is a recognized and
firmly-established independent and adequate state-law ground for refusing to review trial errors.
Hinkle, 271 F.3d at 244; see also Coleman v. Thompson, 501 U.S. 722, 750-51 (1991). The
Michigan Court of Appeals did not find that the prosecutor’s comments amounted to plain error,
and the claim was denied. By reviewing the claim only for plain error, the court enforced the
contemporaneous-objection rule and we hold that the claim is procedurally defaulted.
A federal court will review a state prisoner’s procedurally defaulted federal claim if the
prisoner shows “cause” for the default and “prejudice” from the error, or if a manifest miscarriage
of justice would otherwise result. See Coleman v. Thompson, 501 U.S. at 749-50. Rogers did not
raise a claim of ineffective assistance of counsel, or any other reason, to excuse the default.
Because he has not raised any claim or issue to excuse the default, he has forfeited the question of
cause and prejudice.
The narrow exception for fundamental miscarriage of justice is reserved for the
extraordinary case in which the alleged constitutional error probably resulted in the conviction of
one who is actually innocent of the underlying offense. Dretke v. Haley, 541 U.S. 386,388 (2004);
Schlup v. Delo, 513 U.S. 298 (1995). Rogers has not presented any claim or evidence of actual
innocence.
We affirm the judgment of the district court on the alternate ground of procedural default.

-6-

a

UNITED STATES SUPREME COURT
ROGERS V. MICHIGAN,
CASE NO. NEW PETITION

APPENDIX “C”
People v. Rogers,
MICHIGAN COURT OF APPEALS
No. 291180; (Mich. Ct. App. Aug. 5, 2010)

v

APPENDIX C.

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
August 5,2010

Plaintiff-Appellee,
v

No. 291180
Wayne Circuit Court
LC No. 08-009271-FC

ROWMOTO ANTWION ROGERS,
Defendant-Appell ant.

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

No. 291212
Wayne Circuit Court
LC No. 08-009271-FC

TONY ANTHONY HURD,
Defendant-Appellant.

Before: Sawyer, PJ., and Bandstra and Whitbeck, JJ.
Per Curiam.
Defendants Rowmoto Antwion Rogers and Tony Anthony Hurd were tried jointly before
a single jury, which convicted each of first-degree premeditated murder, MCL 750.316(l)(a),
four counts of assault with intent to commit murder, MCL 750.83, and felon in possession of a
firearm, MCL 750.224f. Defendant Rogers was also convicted of possession of a firearm during
the commission of a felony, MCL 750.227b. Both defendants were sentenced to life
imprisonment for the murder conviction, to be served concurrent to prison terms of 25 to 40
years for each assault conviction and two to five years for the felon-in-possession conviction;
defendant Rogers was also sentenced to a consecutive two-year prison sentence for the felonyfirearm conviction. Defendant Rogers appeals as of right in Docket No. 291180, and defendant
Hurd appeals as of right in Docket No. 291212. The appeals have been consolidated for this
Court’s consideration. We affirm.
I. FACTS AND PROCEEDINGS

-1-

Defendants’ convictions arise from a January 2008 shooting incident in the city of Detroit
during which shots were fired into a Jeep Commander occupied by five individuals: Davon
Perry, his younger brother Rayvon Perry, and three teenage female passengers, Dominique
Spillman, Tiffany Whatley, and Martha Barnett. Martha Barnett died from gunshot wounds to
her head and back. None of the occupants of the Commander were able to identify any of the
shooters. The principal evidence against defendants was the testimony of Rayvon Perry.
Rayvon testified that he knew both defendants and saw them at a “hang-out” house later on the
day of the shooting. According to Rayvon, defendant Rogers admitted to him that he and
another person, DeAndre Woolfolk, shot at the Commander from a car driven by defendant
Hurd. Rogers explained that they “messed up” by shooting at the wrong vehicle. Rayvon stated
that Hurd nodded in a manner expressing his agreement with Rogers’s statements, and Hurd also
stated that he drove away from the shooting when a burglar alarm in a nearby store was
activated. Rayvon did not initially disclose this information to the police, but eventually
revealed it in response to the prosecutor’s investigative subpoena.
II. ADMISSION OF PHOTOGRAPHS
Both defendants argue that the trial court abused its discretion by admitting autopsy
photographs depicting close-up views of the victim’s gunshot wounds. We review the trial
court’s decision to admit photographic evidence for an abuse of discretion. People v Mesik (On
Reconsideration), 285 Mich App 535,544; 775 NW2d 857 (2009). A court abuses its discretion
when its decision is not within the range of principled outcomes. People v Breeding, 284 Mich
App 471,479; 772 NW2d 810 (2009).
Defendants argue that the photographs should have been excluded under MRE 403
because they were not probative of their identity as the shooters, which was the principal issue at
trial, and because their primary purpose was to inflame the jurors’ emotions. We disagree.
MRE 403 provides that relevant evidence may be excluded “if its probative value is
substantially outweighed by the danger of unfair prejudice^]” See People v Fletcher, 260 Mich
App 531, 553; 679 NW2d 127 (2004). Autopsy photographs are relevant where they are
instructive in depicting the nature and extent of the victim’s injuries. People v Flowers, 222
Mich App 732, 736; 565 NW2d 12 (1997). Photographic evidence is also admissible for the
purpose of corroborating a witness’s testimony. People v Mills, 450 Mich 61, 76; 537 NW2d
909 (1995), mod 450 Mich 1212 (1995). If photographs are admissible for a proper purpose,
they are not rendered inadmissible merely because they vividly portray the details of a gruesome
or shocking accident or crime, even though they may tend to arouse the passion or prejudice of
the jurors. Id.-, People v Hoffman, 205 Mich App 1, 18; 518 NW2d 817 (1994). Further,
photographs are not deemed inadmissible simply because other testimony or evidence
encompasses the same issue. Mills, 450 Mich at 76; People v Unger (On Remand), 278 Mich
App 210,257; 749 NW2d 272 (2008).
The three photographs in this case depict the entrance wound on the back of the victim’s
skull, an entrance wound on her back, and an exit wound through her right eyelid. The two
entrance wound photographs were relevant to illustrate the medical examiner’s testimony that the
wounds were irregularly shaped, which led him to conclude that the bullets passed through
intermediary targets before striking the victim. The third photograph, depicting the exit wound,
-2-

'I

«' v

corroborated the medical examiner’s testimony that the bullet passed into the victim’s skull,
traveled through her brain, and exited through the front of her head. The photographs were
relevant to prove the cause of the victim’s death. Although neither defendant disputed the cause
of death, the prosecution is required to prove each element of a charged offense regardless
whether the defendant specifically disputes or offers to stipulate to any of the elements. People v
Crawford, 458 Mich 376,389; 582 NW2d 785 (1998). Further, the photographs were relevant to
illustrate the basis for the medical examiner’s testimony that the bullets that struck the victim
likely first passed through an intermediary target, such as a vehicle, thereby indicating that the
shots originated from outside the vehicle. Although neither defendant disputed that the shots
originated from outside the vehicle, evidence at trial indicated that the two male occupants of the
vehicle, Davon and Ray von Perry, each tested positive for the presence of gunshot residue after
the shooting, and that Davon Perry was admittedly armed with a gun. The prosecution was
entitled to present evidence to erase any doubts the jury might have regarding whether the shots
may have originated from within the vehicle.
Finally, the photographs are not so gruesome as to outweigh their probative value. The
two photographs of the entrance wounds are close-up shots of the wounds and are not
immediately recognizable as photographs of a human body. The photograph of the exit wound
depicts only a small portion of the victim’s face around her closed eye. No blood is depicted in
any of the photographs. Rather than being particularly gruesome, the photographs are “rather
clinical,” Hoffman, 205 Mich App at 19, and they were used to illustrate clinical medical
testimony. Because the photographs were relevant to a proper purpose, and are not so gruesome
or shocking as to inflame the jurors’ passions and emotions, the trial court did not abuse its
discretion in admitting them.
III. PROSECUTOR’S CONDUCT
Defendant Rogers argues that the prosecutor improperly vouched for Rayvon’s credibility
during his closing argument, and also presented an impermissible civic duty argument when he
argued that Rayvon was a “reluctant hero” and “went against the grain” when he decided to
come forward and disclose the information he had learned, knowing that he would be labeled a
“snitch.” Defendant Hurd presents similar arguments in a pro se supplemental brief filed
pursuant to Supreme Court Administrative Order No. 2004-6, Standard 4. Because neither
defendant objected to the prosecutor’s comments at trial, this issue is unpreserved. We review
unpreserved claims of prosecutorial misconduct for plain error affecting substantial rights.
People v McLaughlin, 258 Mich App 635,645; 672 NW2d 860 (2003).
A prosecutor may not vouch for a witness’s credibility or suggest that the government has
some special knowledge that a witness’s testimony is truthful. People v Dobek, 274 Mich App
58, 66; 732 NW2d 546 (2007). A prosecutor may, however, argue from the facts that a witness
is credible. Id. It is also improper for a prosecutor to inject issues broader than a defendant’s
guilt or innocence into the proceedings by appealing to the jurors’ fears and prejudices, People v
McGhee, 268 Mich App 600, 636; 709 NW2d 595 (2005), or by urging a jury to convict a
defendant out of a sense of civic duty or sympathy for the victim. Unger, 278 Mich App at 237.
In this case, the prosecutor discussed how the pejorative term “snitch” reflects a common
attitude favoring loyalty to friends and neighbors and disfavoring cooperation with law
-3-

enforcement, thus providing substantial motive for Ray von to remain silent and not disclose the
information he had learned from defendants regarding the shooting, and yet Rayvon agreed to
come forward and testify, against his own self-interests. The prosecutor did not improperly
vouch for Rayvon’s credibility, but rather properly presented reasons, grounded in the evidence,
for why the jury should find his testimony credible. Further, the prosecutor’s characterization of
Rayvon as a reluctant hero for coming forward and cooperating was not an appeal to any sense
of the jurors civic duty, but rather was a comment on Rayvon’s circumstances as reflecting
reasons for finding his testimony credible. The prosecutor’s comments were not improper and,
therefore, did not amount to plain error.
Although defendant Hurd also argues in his pro se' brief that his attorney was ineffective
for failing to object to the prosecutor’s arguments, because those arguments were not improper,
any objection would have been futile. Defense counsel was not ineffective for failing to make a
futile objection. Unger, 278 Mich App at 255-256.
IV. DEFENDANT ROGERS’S ADDITIONAL ISSUE IN DOCKET NO. 291180
Defendant Rogers argues that his convictions are against the great weight of the evidence,
and therefore, that a new trial is warranted. Because defendant Rogers did not raise this issue in
a motion for a new trial, it is not preserved. People v Musser, 259 Mich App 215, 218; 673
NW2d 800 (2003). Therefore, our review is limited to plain error affecting defendant Rogers’s
substantial rights. Id., citing People v Cannes, 460 Mich 750,763-764; 597 NW2d 130 (1999).
“The test to determine whether a verdict is against the great weight of the evidence is whether
the evidence preponderates so heavily against the verdict that it would be a miscarriage of justice
to allow the verdict to stand.” Musser, 259 Mich App at 218-219; People v McCray, 245 Mich
App 631,637; 630 NW2d 633 (2001).
Defendant Rogers’s argument is not directed at the elements of the crimes of which he
was convicted, but rather solely at the credibility of Rayvon’s testimony linking him to the

crimes. A court may not act as a “thirteenth juror” when evaluating a challenge to the great
weight of the evidence, and “may not attempt to resolve credibility questions anew ” People v
Gadomski, 232 Mich App 24, 28; 592 NW2d 75 (1998). In People v Lemmon, 456 Mich 625,
643-644; 576 NW2d 129 (1998), our Supreme Court recognized that a court may grant a new
trial based on questions of witness credibility only in limited circumstances, such as when the
witnesses testimony contradicts indisputable physical facts or laws, when it is patently
incredible or defies physical realities, or when it is so inherently implausible that a reasonable
jury could not believe it.
Here, Rayvon’s testimony was not patently incredible, it did not defy physical realities,
and it was not so inherently implausible that it could not be believed. Thus, the determination of
ay von s credibility was entirely within the province ..of the jury and this Court may not attempt
to resolve that question differently. Lemmon, 456 Mich at 643-644; Gadomski, 232 Mich App at
8. Further, a defendant’s uncorroborated confession is sufficient to establish his identity as the
perpetrator of a homicide where, as here, other evidence has independently established a death
by criminal agency. People v Cotton, 191 Mich App 377, 389-390; 394,478 NW2d 681 (1991).
Consequently, defendant Rogers’s convictions are not against the great weight of the evidence..

-4-

3

V. DEFENDANT HURD’S ADDITIONAL ISSUES IN DOCKET NO. 291212
A. SUFFICIENCY OF THE EVIDENCE
Defendant Hurd argues that his convictions were not supported by sufficient evidence.
We disagree. When a defendant challenges the sufficiency of the evidence in a criminal case,
this Court must view the evidence in a light most favorable to the prosecution to determine
whether a reasonable juror could find the defendant guilty beyond a reasonable doubt. People v
Nowack, 462 Mich 392, 399; 614 NW2d 78 (2000); People v Sexton, 250 Mich App 211,222;
646 NW2d 875 (2002).
The elements of first-degree premeditated murder are that the defendant killed the victim
and that the killing was “willful, deliberate, and premeditated.” MCL 750.316(l)(a); People v
Bowman, 254 Mich App 142,151; 656 NW2d 835 (2002). ‘The elements of assault with intent
to commit murder are (1) an assault, (2) with an actual intent to kill, (3) which, if successful,
would make the killing murder.” People v Davis, 216 Mich App 47,53; 549 NW2d 1 (1996). A
defendant is criminally liable for offenses that he specifically intends to aid or abet. People v
Robinson, 475 Mich 1,15; 715 NW2d 44 (2006).
In this case, Ray von Perry testified that defendant Hurd acknowledged being the driver of
the vehicle from which defendant Rogers unleashed a barrage of gunshots at the victims’
automobile, and that defendant Hurd expressed agreement with defendant Rogers’s statements
that they intended to kill the occupants of the other vehicle, but “messed up” by shooting at the
wrong vehicle. If believed, this testimony was sufficient to establish defendant Hurd’s guilt of
each of the charged crimes under an aiding and abetting theory. Although defendant Hurd
argues that Rayvon Perry was not credible, the credibility of his testimony was for the jury to
resolve, and this Court may not resolve it anew. People v Wolfe, 440 Mich 508,515; 489 NW2d
.748 (1992), amended 441 Mich 1201 (1992); People v Harrison, 283 Mich App 374, 378; 768
NW2d 98 (2009). Thus, the evidence was sufficient to support defendant Hurd’s convictions.
B. DEFENDANT HURD’S SENTENCES
Defendant Hurd lastly argues that his 25-year minimum sentences for the assault
convictions are unconstitutionally cruel or unusual, contrary to US Const, Am Vm (prohibiting
cruel and unusual” punishment), and Const 1963, art 1, § 16 (prohibiting “cruel or unusual”
punishment). There is no merit to this argument.
^ Defendant Hurd does not dispute that his sentences are within the appropriate guidelines
range. A sentence within the appropriate guidelines range is presumptively proportionate, and a

Defendant Hurd does not challenge the scoring of the guidelines or the trial court’s
determination of the appropriate guidelines range. “Although MCL 769.34(10) provides that a
sentence within the guidelines range must be affirmed on appeal unless the trial court erred in
scoring the guidelines or relied on inaccurate information, this limitation on review is not
xP,?iC,a5le t0 c,aims of constitutional error.” People v Powell, 278 Mich App 318, 323; 750
NW2d 607 (2008).

-5-

] ■

proportionate sentence is neither cruel nor unusual. People v Powell, 278 Mich App 318, 323;
750 NW2d 607 (2008). Defendant Hurd has not overcome the presumptive proportionality of
his sentences. His only argument is that the evidence of his guilt was weak, but as previously
explained, the evidence was sufficient to establish each of his convictions beyond a reasonable
doubt. Defendant Hurd intentionally assisted two co-felons in unleashing deadly force against an
occupied vehicle, intending to kill the occupants. He has three prior drug-related convictions and
committed the instant offenses while on parole. Under these circumstances, there is no merit to
defendant Hurd’s argument that his sentences are unconstitutionally cruel or unusual.
We affirm.
/si David H. Sawyer
/s/ Richard A. Bandstra
/si William C. Whitbeck

-6-

J

Court of Appeals, State of Michigan
ORDER
People of Ml v Rowmoto Antwion Rogers

Kirsten Frank Kelly
Presiding Judge

Docket No.

324777

Michael J. Talbot

LC No-

08-009271-FC

Cynthia Diane Stephens
Judges

The Court orders that the delayed application for leave to appeal is DENIED because
defendant has failed to meet the burden of establishing entitlement to relief under MCR 6.508(D). The
defendant alleges grounds for relief that could have been raised previously and he has failed to establish
both good cause for failing to previously raise the issues and actual prejudice from the inegulaiities
alleged, and has not established that good cause should be waived. MCR 6.508(D)(3)(a) and (b).

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk, on

Date

'*
4

UNITED STATES SUPREME COURT
ROGERS V. MICHIGAN,
CASE NO. NEW PETITION

APPENDIX “D”
People v. Rogers,
MICHIGAN SUPREME COURT ORDER
lv. Den. 488 Mich. 1035, 793 N.W.2d. 236 (Feb. 2, 2011)

APPENDIX D.

4

» Order

Michigan Supreme Court
Lansing, Michigan

February 2,2011

Robert P. Young, Jr.,

141796

Michael F. Cavanagh
Marilyn Kelly
Stephen J. Markman
Diane M. Hathaway
Mary Beth Kelly
Brian K. Zahra.

Chiefjustice

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v
ROWMOTO ANTWION ROGERS,
Defendant-Appellant.

Justices

SC: 141796
COA: 291180
Wayne CC: 08-009271-FC

On order of the Court, the application for leave to appeal the August 5, 2010
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

§) '
■ I, Corbin R. Davis, Clerk of the Michigan .Supreme Court, certify that the
y
foregoing is a true and complete copy of the order entered at the direction of the Court.
February 2,2011
0126

Clerk

